                       The Chicago Public Schools’ 

                   Administration of Title I, Part A, Funds 

                         for Providing Services to 

                         Private School Children 



                                     FINAL AUDIT REPORT 





                             Control Number ED-OIG/A05-B0005 

                                        March 2002



Our mission is promote the efficiency,               U.S. Department of Education
effectiveness, and integrity of the                  Office of Inspector General
Department’s programs and operations.                Chicago, Illinois
Statements that managerial practices need improvements, as well as
other conclusions and recommendations in this report represent the
   opinions of the Office of Inspector General. Determinations of
    corrective action to be taken will be made by the appropriate
                  Department of Education officials.

  In accordance with the Freedom of Information Act (5 U.S.C. §
552), reports issued by the Office of Inspector General are available,
   if requested, to members of the press and general public to the
extent information contained therein is not subject to exemptions in
                               the Act.
                          UNITED STATES DEPARTMENT OF EDUCATION

                                             OFFICE OF INSPECTOR GENERAL



                                                  MAR 292002 

                                                                              Control Number ED-DIGI A05-B0024

Ms. Mary Jayne Broncato
Deputy Superintendent, School Support
Illinois State Board of Education
100 N. First Street
Springfield, IL 62777-0001

Dear Ms. Broncato:

Attached is our report entitled the Chicago Public School's (CPS) Administration of Title I, Part
A, funds for Providing Services to Private School Children during the period July 1, 1999,
through June 30, 2000. This report incorporates the comments you and CPS provided in response
to the draft audit report. If you have any additional comments or information that you believe
may have a bearing on the resolution of this audit, you should send them directly to the following
U.S. Department of Education official, who will consider them before taking final Departmental
action on the audit.

                          Susan B. Neuman, Ed.D.
                          Assistant Secretary for
                          Elementary and Secondary Education
                          U.S. Department of Education
                          FB6-3W315
                          400 Maryland A venue, SW
                          Washington, DC 20202


Office of Management and Budget Circular A-50 directs federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, the official listed above would appreciate receipt of your comments within
30 days.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the
Office of Inspector General are available, if requested, to members of the press and general
public to the extent information contained therein is not subject to exemptions in the Act.




                                     400 MARYLAND AYE., S.W. WASHINGTON, D.C. 20202-1510 


             Our mission is to ensure equal access to education and to promote educational exceUence throughout the Nation. 

We appreciate the cooperation members of your staff and CPS provided us during our audit. If
you have anyql,l:estiol1;s, please contact Richard J. Dowd; Regional Inspector General for Audit,
Region V, 'Chicago, lllinois, at 312;.886.;6503.                     . .                        .




                                             Thomas A. Carter
                                             Assistarit Inspector General for Audit


Attachment
Table of Contents
The Chicago Public Schools’ Administration of Title I, Part A,
Funds for Providing Services to Private School Children
Control Number ED-OIG/A05-B0005

                                                                  Page

Executive Summary                                                  1

Audit Results

  Finding No. 1 CPS Did Not Conduct Yearly Progress
                Assessments for Title I Private School Children    3

  Finding No. 2 CPS Could Not Account for All Title I Property
                and Equipment                                      5

  Finding No. 3 CPS Could Not Clearly Show How Much It
                Budgeted for or Spent to Operate the Title I
                Programs at Each Private School                    7

  Finding No. 4 CPS Did Not Return All Title I Funds Spent for
                an Expense OESE Determined Was Unreasonable        8

Other Matter                                                       9

Background                                                        10

Objectives, Scope, and Methodology                                11

Statement on Management Controls                                  12

Appendix A – Auditee Comments                                     14
                                 Executive Summary

During the period of July 1, 1999, through June 30, 2000, the Chicago Public Schools (CPS)
worked with private school principals to design Title I, Part A (Title I), programs for children
attending private schools, monitored those programs to ensure the children were eligible for
services, and ensured the designed services were provided. CPS also properly corrected
accounting entries that it recorded in error during the audit period. After being instructed to do
so by the Office of Elementary and Secondary Education (OESE), CPS rescinded the ability to
enter purchase order requisitions on-line from private school officials.

The objectives of our audit were to determine if CPS (1) ensured that Title I funds used to
provide services for private school children were expended for their intended purposes and in
compliance with selected Federal laws and regulations, and (2) generated and provided funds for
Title I services to private school children in proportion to the number of low-income private
school children in participating school attendance areas. We did not review CPS’ administration
of Title I funds for providing services to public school children.

We identified four instances of non-compliance caused by significant management control
weaknesses and one other matter that adversely affected CPS’ ability to administer the Title I
program during our audit period.

Specifically, CPS:

1. 	 Did not conduct yearly progress assessments for Title I private school children;

2. 	 Could not account for all Title I property and equipment;

3. 	 Could not clearly show how much it budgeted for and spent on each Title I program for
     private school children; and

4. 	 Did not return all Title I funds spent for an expense that the OESE determined was
     unreasonable.

To ensure CPS strengthens its management controls and improves its ability to provide Title I
services to eligible private school children, we recommend that the Assistant Secretary for
Elementary and Secondary Education require the Illinois State Board of Education (ISBE) to (1)
ensure CPS has finalized its comprehensive yearly progress plan and ensure the plan is
implemented immediately, (2) require CPS to establish and follow written policies and
procedures that comply with 34 C.F.R. § 80.32 and 200.13, (3) ensure CPS has updated its
financial management system so it facilitates tracking the amount of Title I funds and capital
expenditures CPS budgets for and spends on each Title I program for private school children,
and (4) verify CPS restored $7,050 to the funds available for Title I programs for private school
children and confirm that CPS provided the additional services described in its response to our
draft audit report.


Final Audit Report	                          1                            ED-OIG/A05-B0005
We also noted, for fiscal year 2002’s allocation, CPS personnel did not identify all children
living within CPS’ boundaries and attending private schools. We previously reported this matter
on February 23, 2001, in State and Local Action Memorandum 01-04 (See the Other Matter
section of this report). In March 2001, OESE asked the ISBE to review this matter and report its
conclusions to the Assistant Secretary for Elementary and Secondary Education. In response, the
ISBE had CPS work closely with private school representatives to ensure an appropriate Title I
allocation for providing services to eligible private school children during the 2001-2002 school
year. CPS revisited the matter and allocated $1.1 million more than it originally allocated to
provide services to eligible private school children.

In response to our draft audit report, the ISBE and CPS generally agreed with the findings and
recommendations. The ISBE stated that it “fully recognizes the importance of demonstrating,
based on assessments, what constitutes adequate yearly progress.” CPS acknowledged that it
needed to strengthen its controls over administering Title I funds for providing services to private
school children, and it explained the corrective actions it has taken or plans to take. The ISBE
wrote that it will monitor CPS to ensure the actions have been taken as described. See Appendix
A—Auditee Comments. Because of the voluminous number of attachments included in the
ISBE’s response to the draft audit report, we have not included them in Appendix A. Copies of
the attachments are available upon request.

We made minor changes to the report based on comments we received. We also deleted draft
audit report Finding No. 4, because CPS and the ISBE provided sufficient documentation to
resolve the issue.




Final Audit Report                           2                           ED-OIG/A05-B0005
                                      AUDIT RESULTS 

During the period July 1, 1999, through June 30, 2000, CPS (1) properly controlled Title I funds
allocated to provide services to private school children after being instructed to do so by OESE,
(2) adjusted its accounting records to ensure only instructional costs were charged to the
instructional pool of funds, (3) worked with private school officials to design Title I programs for
children attending private schools, and (4) monitored Title I children attending private schools to
ensure they were eligible and received eligible services. In addition, CPS included children
attending private schools in its fiscal year 2002 rank ordering of public school attendance areas.

However, we noted four instances of noncompliance. During the audit period, CPS:

1. 	 Did not conduct yearly progress assessments for Title I private school children;
2. 	 Could not account for all Title I property and equipment;
3. 	 Could not clearly show how much it budgeted for and spent on each Title I program for
     private school children; and
4. 	 Did not return all Title I funds spent for an expense OESE determined was unreasonable.

Significant management control weaknesses that require administrative action by ISBE and the
Chief Executive Officer of CPS caused most of these instances of non-compliance. We also
identified one other matter that warrants their attention.

In response to our draft audit report, the ISBE and CPS generally agreed with the findings and
recommendations. CPS acknowledged that it needed to strengthen its controls over
administering Title I funds for providing services to private school children, and it explained the
corrective actions it has taken or plans to take. The ISBE wrote that it will monitor CPS to
ensure the actions have been taken as described.


Finding No. 1 	       CPS Did Not Conduct Yearly Progress Assessments for Title I Private
                      School Children

For the period July 1, 1999, through June 30, 2000, CPS did not develop or adopt a plan to
conduct yearly progress assessments for private school children receiving Title I services. CPS
personnel did not meet with private school representatives to develop an assessment plan for
services. Additionally, CPS did not make arrangements with private school representatives to
conduct an assessment to measure the improvement of the skills, knowledge, and abilities
targeted in the program designs.

Pursuant to Section 1111(b)(1) of the Elementary and Secondary Education Act of 1965, as
amended (the Act), “Each state plan shall demonstrate that the State developed or adopted
challenging content standards and challenging student performance standards that will be used
by the State, its local educational agencies, and its schools to carry out this part.” Section
1111(b)(2) requires each State plan to demonstrate, based on assessments described under
paragraph (3), what constitutes adequate yearly progress of any school and local educational



Final Audit Report	                          3                           ED-OIG/A05-B0005
agency (LEA) served with Title I funds toward enabling children to meet the State’s student
performance standards. Pursuant to Section 1111(b)(3), “Each State plan shall demonstrate that
the State has developed or adopted a set of high-quality, yearly student assessments, …that will
be used as the primary means of determining the yearly performance of each local educational
agency and school served under this part in enabling all children served under this part to meet
the State’s student performance standards.”

For fiscal year 2002, CPS planned to implement a program to measure participating private
school children’s yearly progress. CPS informed us that the planning would be done in
consultation with representatives from the private schools. During our audit, CPS’ Funded
Programs staff met with private school affiliates to develop a (1) definition of adequate yearly
progress for participating private school children and (2) plan to assess yearly progress.

As of July 2001, CPS and the private school representatives still did not have an agreed upon
definition of adequate yearly progress and standards to compare how the private school children
were progressing. As a result, CPS could not determine if its Title I programs were enabling
private school children served with Title I funds to meet student performance standards. Setting
standards for yearly progress will allow CPS to closely monitor the programs so proper changes
can be made that enable private school children served with Title I funds to progress toward
meeting challenging standards.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education direct
ISBE to:

1.1 	 Ensure CPS’ Funded Programs staff immediately finalizes a comprehensive plan that
      defines adequate yearly progress and lays out how CPS will assess each private school
      Title I student’s progress. This plan shall be developed in coordination with private school
      representatives to ensure meaningful and timely assessments of progress.

1.2 	 Coordinate with CPS for a follow up review of CPS’ implemented corrective actions.

Auditee Comments

CPS and ISBE agreed with our finding and recommendations. The ISBE also stated that it
recognizes the importance of demonstrating, based on assessments, what constitutes adequate
yearly progress. CPS provided a proposed strategy for satisfying the requirement to ensure
meaningful and timely assessments of student progress. ISBE wrote that it will monitor CPS to
ensure that CPS’ efforts to move forward with the development of a plan addressing adequate
yearly progress will be in consultation with representatives of the private school affiliates. ISBE
also wrote that it will monitor plan development and the implementation of the corrective
actions.




Final Audit Report	                          4                           ED-OIG/A05-B0005
Finding No. 2        CPS Could Not Account for All Title I Property and Equipment

We reviewed inventory records for 10 of 109 private schools that had children receiving services
through CPS’ Title I programs during the period July 1, 1999, through June 30, 2000. We
compared the property and equipment listed on the Title I teachers’ and aides’ inventory records
with the property and equipment in the Title I classrooms. (The Title I teachers and aides
marked the property and equipment at the private schools with black marker or removable
labels.) The property and equipment in the Title I classrooms agreed with the inventory listings.

We compared the Title I teachers’ and aides’ inventory lists with CPS’ master inventory. We
found Title I property and equipment located at the private schools that was not on CPS' master
inventory. Our review of the inventory records for the 10 schools we visited disclosed 473
pieces of property and equipment. We found 241 pieces of property and equipment in private
school Title I classrooms that were not on CPS’ master inventory. For one school, none of the
property and equipment in the Title I classroom was listed on CPS’ master inventory.

We also identified property and equipment listed on CPS' master inventory that was no longer in
the Title I classrooms at the private schools. We identified 80 pieces of property and equipment
on CPS’ master inventory that were no longer located in the 10 Title I classrooms located in
private schools that we visited. In at least one private school, the Title I teacher properly
disposed of the property that was no longer needed. In another private school, the unneeded
equipment was locked in a storage room.

Given these significant differences, we have no assurances that CPS’ inventory for the 99 private
schools we did not visit is accurate.

Pursuant to 34 C.F.R. § 200.13(a), a public agency must keep title and exercise continuing
administrative control over all property, equipment, and supplies that the public agency acquires
with Title I funds for the benefit of eligible private school children. Further, 34 C.F.R. § 200.13
(d)(1), requires an LEA to remove equipment and supplies placed in a private school if they are
no longer needed for Title I purposes.

CPS has written property management policies that specifically address inventory maintenance,
reconciliation, and disposal procedures. According to CPS’ Policy Manual, Section 401.9,
adopted April 21, 1999,

   Permanent items that have been purchased by or donated to schools, Region
   Offices, and Central Service Center departments and which have a value of $250
   and a useful life of at least three years must be entered on the Equipment and
   Furniture Register … This inventory is to be maintained and updated quarterly and
   upon receipt of new equipment … In addition to updating the inventory quarterly,
   each school, region, and Central Service Center unit must complete a physical
   inventory of all fixed assets every year, beginning with June 30, 1999, and every
   year thereafter.




Final Audit Report                           5                           ED-OIG/A05-B0005
    Fixed assets at schools, regions, and the Central Service Center are to be 

    inventoried on the Equipment and Furniture Register or on the computer-based 

    program, when available, listing all information contained on the Equipment and 

    Furniture Register and the funding source, if the asset was purchased through a 

    grant. This inventory is to occur upon the fixed asset's delivery. Each item should 

    be tagged with its control number that can be referenced on the Equipment 

    and Furniture Register. 


Though CPS clearly had written policies in place, it did not ensure adherence to them when
dealing with property and equipment purchased with Title I funds and placed in Title I
classrooms at private schools. During the audit period, CPS did not (1) reconcile its property and
equipment inventory with the inventory located in the Title I classrooms at private schools; (2)
adequately label (or tag) Title I furniture and equipment placed in private schools; (3) ensure
Title I staff knew what to do with excess and obsolete property and equipment; and (4) ensure
that Title I staff notified CPS administration that they received new property and equipment.

As a result, Title I property and equipment could be lost, stolen, or used for unallowable
activities and CPS would not know about it. Additionally, CPS personnel might be able to put
property and equipment that is not currently being used to productive use at other schools that
have Title I programs.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education direct
ISBE to require CPS to:

2.1 	 Review its property and equipment policies and procedures and ensure the policies and
      procedures include directives that will ensure CPS maintains one uniform system of
      inventory procedures. These procedures should be applied uniformly, whether the
      equipment or property is at a public school, a private school, or CPS’ administrative
      offices.

2.2 	 Reconcile its master inventory with the property and equipment located in its Title I
      classrooms; and

2.3 	 Provide training to Title I staff on how to dispose of any Title I property and equipment
      that is obsolete or no longer needed in the Title I classrooms.

Auditee Comments

CPS and ISBE agreed with our finding and recommendations.




Final Audit Report	                          6                           ED-OIG/A05-B0005
Finding No. 3 	       CPS Could Not Clearly Show How Much It Budgeted for or Spent to
                      Operate Title I Programs at Each Private School

CPS could not clearly show how much money it budgeted for or spent to operate the Title I
programs at each private school. We identified three different amounts that CPS budgeted for
the Title I programs for private school children. CPS had one budget amount ($11,453,356) that
it submitted to ISBE when it applied for Title I funding, a second amount ($12,302,238) based
on the private schools’ program design budgets, and a third amount ($13,404,739) recorded in
CPS' accounting records as allocated for Title I programs for private school children.

Also, per CPS’ accounting records, CPS did not use approximately $2.9 million in capital
expense funds solely for capital expenses incurred to provide Title I services to private school
children. In its fiscal year 2000 budget, CPS requested capital expenses (from Title I funding) of
$3.1 million. Its accounting records showed that CPS only charged approximately $175,000 for
capital expenses during fiscal year 2000. CPS told us that in December 1999, funding was
available in the capital expense program to fund non-instructional positions. CPS chose to leave
the positions (in the accounting system) as instructional costs and manually transfer the expenses
to the capital expense (non-instructional costs) accounting classification after the end of the
fiscal year. After making this adjustment, CPS’ accounting records still showed a capital
expense carryover of approximately $696,000 from fiscal year 2000.

Because it could not clearly identify how much it budgeted for or spent to operate the Title I
programs at each private school, CPS could not definitively state how much Title I funds it had
left over at the end of the program year. Private school officials believed that CPS should have
approximately $2 million of Title I funds from fiscal year 2000. Due to CPS’ method of
accounting for Title I funds used to provide services to private school children, we could neither
substantiate nor refute this amount.

According to 34 C.F.R.§ 80.20(a)(2), fiscal control and accounting procedures must be sufficient
to “Permit the tracing of funds to a level of expenditure adequate to establish that such funds
have not been used in violation of the restrictions and prohibitions of applicable statutes.”
Financial management systems must provide an accurate, current, and complete disclosure of the
financial results of financially assisted activities.

CPS' accounting system was inadequate to account for Title I instructional and non-instructional
(capital expenses) costs. CPS did not account for Title I non-personnel costs (such as supplies
and equipment) or personnel costs in a similar manner. CPS accounted for non-personnel costs
by private school unit numbers (identifiers CPS assigned to each Title I program it operated at a
private school). The accounting records for non-personnel costs clearly showed the total Title I
funds CPS spent on equipment, supplies, and other expenses for each Title I program serving
private school children.

CPS accounted for personnel costs (salaries and fringe benefits) by public school unit number.
Its accounting records did not clearly show how much CPS spent on personnel costs to operate
Title I programs at each private school. Additionally, CPS did not correctly code non-




Final Audit Report	                          7                           ED-OIG/A05-B0005
instructional aides’ salary and fringe benefits (capital expenses) when recording these payments
in its accounting system.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education direct
ISBE to ensure that CPS:

3.1 	 Revises its financial management system so it will permit CPS to clearly show the amount
      of Title I instructional funds and capital expenditures it spent to operate the Title I program
      at each private school. At a minimum, CPS should account for all expenses, personnel and
      non-personnel, based on the private school unit number.

3.2   E
      	 stablishes effective budgetary control over Title I expenditures to ensure that money
      budgeted is expended according to the established plans or program designs.

Auditee Comments

CPS and ISBE agreed with our finding and recommendations. CPS described three corrective
actions it took or is taking: (1) for FY 2001, all non-instructional positions were transferred out
and correctly charged to the Title I capital expenses account; (2) for FY 2002, CPS assigned two
project numbers to separate appropriations and expenditures for Catholic and non-Catholic
schools; and (3) for FY 2003, CPS stated it will establish accounting procedures where the
individual private school unit number will be charged for both personnel and non-personnel
items. ISBE stated it would monitor CPS to ensure that it has followed through or will follow
through with its proposed corrective actions.


Finding No. 4 	       CPS Did Not Return All Title I Funds Spent for an Expense OESE
                      Determined Was Unreasonable

In June 1999, the Archdiocese of Chicago, Office of Catholic Education (OCE), contracted with
Millennia Consulting to conduct a five-year evaluation study of the Title I programs provided to
eligible Catholic school children. According to OESE, the OCE directed the contractor’s work.
OCE also received invoices from Millennia Consulting and submitted them to CPS for payment.
Between November 1999 and October 2000, CPS paid Millennia Consulting $188,200 based on
the invoices OCE submitted.

In its monitoring report dated January 10, 2001, OESE instructed ISBE to require CPS to restore
$181,150 from non-federal sources to the pool of funds to provide services to private school
children. OESE cited Section 14303(a)(1) of the Act, which requires any contract to be under
the control and supervision of a public agency. In addition, OESE stated that the Millennia
Consulting study repeated existing information on Title I and was therefore not a reasonable and
necessary expense (34 C.F.R. § 80.22). Because OESE determined that the Millennia Consulting
study was not a reasonable and necessary expense, all payments made to the contractor are
unreasonable.



Final Audit Report	                           8                            ED-OIG/A05-B0005
Recommendation

4.1 	 We recommend that the Assistant Secretary for Elementary and Secondary Education
      direct ISBE to confirm, with private school representatives, that CPS restored the
      additional $7,050 ($188,200 less $181,150) and used those funds to provide the services
      CPS described in its response to the draft audit report (See Appendix A).

Auditee Comments

CPS stated that it restored the $7,050 to the pool of funds that provide instructional services to
private school Title I students and used the funds for a summer program implemented from June
2001 to August 2001. ISBE stated that it reviewed the documents CPS submitted to support
restoration of the funds.

Office of Inspector General Response

The auditee concurred with the finding and stated that it took corrective action. However, the
documentation provided was not sufficient to confirm that CPS provided the additional services
described. We revised our recommendation based on the auditee’s comments.


                                      OTHER MATTER
Rank Ordering and Per Pupil Allocations

In February 2001, we reported that preliminary results from our audit disclosed that CPS
followed a systematic process when ranking its public school attendance areas and allocating
Title I funds for the 2001-2002 school year. Though CPS employees ensured they used poverty
data from the private schools within CPS’ boundaries, they did not attempt to locate children
living within CPS’ boundaries and attending private schools located in other school districts.
CPS employees also did not include children attending private schools whose administrators
failed to respond to CPS’ requests for information. Finally, we reported that CPS’ count of
children eligible for Temporary Assistance to Needy Families and attending private schools
might have been understated.

In March 2001, the Acting Deputy Assistant Secretary for Elementary and Secondary Education
asked the ISBE’s Superintendent of Education to review the findings of the Office of Inspector
General and report his conclusions within 30 days to the Deputy Assistant Secretary. In
response, the ISBE required CPS to work with the private schools to ensure an appropriate
allocation for the 2001-2002 school year. CPS revisited its count and determined that private
school children generated $1.1 million more than CPS originally calculated. Though CPS added
funds to the pool of Title I funding available for services for private school children for the 2001-
2002 school year, it did not revise its rank ordering. CPS included both public and private
school children in its original 2001-2002 rank ordering of public school attendance areas.
However, CPS officials told us that the private school recalculation occurred too late in the year


Final Audit Report	                           9                           ED-OIG/A05-B0005
to revisit its overall rank ordering of public school attendance areas. The budgets for all CPS
public schools had already been set.

For the 2002-2003 school year, CPS’ Funded Programs staff plans to address this issue by
working with the private school administrators and affiliates to obtain an accurate poverty count
according to the time line it developed in response to an OESE technical assistance visit. CPS
plans to gather and review poverty data that fairly represents the number of private school
children that would qualify for eligibility under Title I legislation and include those children in
the rank ordering process. Additionally, CPS informed us that it developed and implemented a
plan to identify children who live in Chicago but attend schools outside Chicago.

OESE should ensure that the ISBE approves CPS’ 2002-2003 application for Title I funding only
after receiving assurances that CPS completed its rank ordering according to the plan described.


                                       BACKGROUND
Title I, Part A, of the Elementary and Secondary Education Act of 1965, as amended, provides
funds for supplemental educational services for eligible public and private school children living
in high-poverty areas. The Title I, Part A, program provides formula grants through state
educational agencies to LEAs to assist low-achieving children meet challenging state curriculum
and student performance standards in core academic subjects.

LEAs are to target funds to schools with the highest percentages of children from low-income
families. Title I services target children who are failing, or at most risk of failing, to meet state
academic standards. Services the LEA can provide to private school children under the program
include, but are not limited to, (1) instruction and services provided at a public or private school
site, other public and privately owned neutral sites, or in mobile vans or portable units; (2)
educational radio and television; (3) computer-assisted instruction; (4) extended-day services; (5)
home tutoring; (6) take-home computers; and (7) interactive technology. The LEA may provide
Title I services directly or through contracts with public and private agencies, organizations, and
institutions, as long as those entities are independent of the private school and of any religious
organization in the provision of those services.

CPS is the LEA for purposes of providing Title I services to children living in the City of
Chicago and attending private schools. The Act authorizes Federal funds to be made available
through ISBE. For the period July 1, 1999, through June 30, 2000, ISBE allocated $168,813,679
in Title I funds to CPS. According to its application for funding, CPS budgeted $11,453,356 for
Title I programs to provide services to children attending private schools. This amount consisted
of $8,351,305 to provide instructional and support services and $3,102,051 for capital expenses.
During the 2000 program year, CPS allocated funding to provide Title I services to children
attending 109 different private schools.




Final Audit Report                           10                           ED-OIG/A05-B0005
                      OBJECTIVES, SCOPE AND METHODOLOGY 

The primary objectives of our audit were to determine if CPS:

1. 	 Ensured that Title I funds used to provide services for private school children were expended
     for their intended purposes and in compliance with selected Federal laws and regulations;
     and
2. 	 Generated and provided funds for Title I services to private school children in proportion to
     the number of low-income private school children in participating school attendance areas.

Specifically, we determined if CPS:

1. 	 Properly controlled Title I funds allocated to provide services to private school children and
     did not have private schools administer the Title I funds themselves (during a technical
     assistance visit in April 2000, OESE told CPS it could not allow private school officials to
     encumber Title I funds);
2. 	 Properly accounted for Title I funds;
3. 	 Charged non-instructional costs as instructional costs, and, if so, determined if CPS properly
     adjusted its accounting records to reflect that the costs were non-instructional (capital
     expenses);
4. 	 Properly counted children attending private schools and included them in its rank ordering;
5. 	 Worked with private school officials to design programs to provide services to children
     attending private schools; and
6. 	 Monitored Title I children attending private schools to ensure they were eligible, received
     services, and made progress toward achieving the state’s academic standards.

Our audit covered the period July 1, 1999, through June 30, 2000, and CPS’ rank ordering
process for the 2001-2002 program year.

To accomplish our objectives, we reviewed CPS’ (1) written policies and procedures over
providing Title I services to private school children, accounting for Title I funds, and maintaining
property records; (2) accounting and payroll records; (3) purchase orders, invoices, and
cancelled checks for expenses charged to the Title I program during the audit period; and (4)
Title I program designs for providing services to children attending 109 private schools. We
visited five private schools, where we spoke with the Title I teachers or aides (who were CPS
employees) and ensured CPS’ monitoring reports on the Title I program accurately reflected the
status of the program at the private school. We also conducted an inventory of property and
equipment located at 10 private schools. We compared our inventory with the master inventory
maintained by CPS’ accounting department. Finally, we interviewed various CPS employees,
Title I teachers and aides, private school administrators, and private school principals. We did
not review CPS’ administration of Title I, Part A, funds for providing services to public school
children.

During the audit, we relied on computer-processed data containing Title I accounting
transactions and rank ordering information. To assess the reliability of the accounting data, we
compared the data with source documents (purchase orders and invoices) and the source


Final Audit Report	                          11                          ED-OIG/A05-B0005
documents with the computer data. For the rank ordering data, we used the same data CPS used
for fiscal year 2002, and recalculated CPS’ count of children attending private schools and
meeting the poverty level criteria. We ensured that the data CPS used was the same data
submitted by the private schools. We also performed logical tests of the rank ordering data for
the 2002 program year (the rank ordering source information for 2000 and 2001 was not
available). Based on these tests, we concluded that the computer-processed data were
sufficiently reliable to be used in meeting the audit’s objectives.

We reviewed CPS’ accounting for Title I transactions during the period July 1, 1999, through
June 30, 2000. During this period, CPS recorded 13,541 transactions totaling $12,770,312. We
stratified these transactions into seven categories: Salary/Teachers; Salary/Career Services;
Supplies; Contractual Services; Payments to Schools1; Pension/Fringe Benefits; and Furniture
and Equipment. We randomly selected and reviewed documentary evidence for 560 transactions
totaling $4,760,831. We tested the transactions to determine whether they were properly
accounted for, allowable, supportable, and accurate.

We conducted our fieldwork at CPS’ administrative offices and our regional office in Chicago,
Illinois, between November 2000 and September 2001. We discussed the results of our audit
with ISBE and CPS officials on August 14, 2001. Our audit was performed in accordance with
government auditing standards appropriate to the scope described above.


                     STATEMENT ON MANAGEMENT CONTROLS
As part of our audit, we assessed CPS’ system of management controls, policies, procedures, and
practices applicable to its administration of Title I services for private school children. We
performed the assessment to determine the level of control risk; that is, the risk that material
errors, irregularities, or illegal acts may occur. We performed the assessment to assist us in
determining the nature, extent, and timing of the tests needed to accomplish our audit objectives.

To make our assessment, we identified CPS’ significant management controls and classified
them into the following categories:

1. Financial Management

       Generating (rank ordering of public school attendance areas) and providing funds (per
        pupil allocations),
       Monitoring the use of funds,
       Budgeting allocated funds,
       Approving requests and paying for goods and services, and
       Paying salaries and fringe benefits.



1
  Payments to Schools consisted of advances to private schools for admission fees and
transportation of eligible private school children to Title I services or events.


Final Audit Report                          12                          ED-OIG/A05-B0005
2. Administrative

      Monitoring services provided to private school children,
      Delivering services to private school children, and
      Assessing the progress of private school children.

3. Property and Equipment Inventory Development

Due to inherent limitations, a study and evaluation made for the limited purpose described above
would not necessarily disclose all material weaknesses in CPS’ management control structure.
However, our assessment disclosed significant management control weaknesses that adversely
affected CPS’ ability to administer Title I funds used to provide services to children attending
private schools. These weaknesses included (1) non-existent written procedures to determine the
eligibility and assess the progress of private school children receiving Title I services, (2) written
procedures for property and equipment that were not followed and also needed strengthening,
and (3) an inadequate financial management system. These weaknesses and their effects are
discussed in the Audit Results section of this report.




Final Audit Report                            13                           ED-OIG/A05-B0005
                                                                                      Appendix A—Auditee Comments




                         Illinois State Board of Education
                         100 NMh .... StrMI· $prIngSeId. _ _ ezTn«lOl

                         .......
                         Ronald JJ.. QIotwIb:
                         RoI\8Id

                         """"'"'
                                     QIdwttz



                                                                 8 , 2002
                                                        February 8,
                                                                                             Sr.t. ~
                                                                                             Sgt.
                                                                                                    RMpIclo   -­
                                                                                                            _.isbl.net
                                                                                                    AHplc:lo F. V&Zquu
                                                                                                                VUctutlZ
                                                                                                   S~ 01 EduI;:8fIctI
                                                                                                               E'*-/kItI




                            Carter
            Mr. Thomas A. Caner
                   Stales Department of Education
            United States
            Office of Inspector General
                   ofinspeclor
            400 Maryland Ave.,
                           Ave. , S.W.
            Washington, D.C. 20202·
                               20202·1510
                                       1SlO

            Dear Mr. Carter:
                     Caner.

            This letter constitutes the response from the lllinois
                                                           illinois State Board of Education (ISBE) to the Draft
            Audit Report on the Chicago Public Schools' (CPS) Administration ofTitlcofTitle I,t. Pan
                                                                                                 Part A.
                                                                                                      A, Funds for
            Providing Services to Private School Childrm (Control NumberNwnber ED-OIGJAOS-BOOOS)
                                                                                EO-OIGfAOS-BOOOS) as
            prepared and submitted by me  the United States Department of Education (USDE), Office of
            Inspector General (OIG). That Draft Audit Report
                                                           Rcpon presents the results of an audit oreps'
                                                                                       oran          orcps'
                              fTitle I, Pan A. funds during the period July 1, 1999,
            administration ooeTitlc                                             1999. through June}WlC )0, 2000.

            FindiDZ
            FtadiD& No. 1              CPS Did Not C ODduct Yearly Progress
                                                   Conduct         Proem. Assess ments for
                                                                            Assa,mealS ror Title
                                                                                           Tltle I Private
                                       School
                                       Sdool Children
                                              Cbildml

            OIG RecommendatioDs:

            The Assistant
                AlSistant Secretary for Elementary and Secondary Education directs ISBE
                                                                                   LSBE to:

            I, 1I Ensure CPS' Funded Programs staff immediately finalizes a comprehensive plan that defines
            1.
                  adequate yearly progress and lays out how CPS will assess each private school Title 1I
                  student's progress. This plan shall be developed in coordination with private school
                                                                                                school
                 representatives to ensure meaningful and timely assessments of progress.

            1.2 Coordinate with CPS for a fo llow-up review orcps' implemented corrective actions.

            JSBE RespoD
            ISO£       se:
                 Response:

            The 010
                OIG Draft Audit Repon       related the OIO's
                                    Report related      OIG's finding that,
                                                                       that, for the period
                                                                                     period July I, 1999,
                                                                                                      1999, through
                                                                                                             through
            June 30, 2000, CPS
                            CPS did
                                  did not
                                       DOt have an
                                                 an agreed upon
                                                           upon definition of adequate
                                                                                adequate yearly
                                                                                           yearly progress, did not
            develop
            develop or  adopt aa plan to annually assess the
                     or adopt                             the progress
                                                              progress of Title I participating
                                                                                   panicipating private school
                                                                                                           school
            students, and
                      and did not satisfy the requirement toto closely
                                                               closely monitor
                                                                        monitor Title
                                                                                  Title I programs soso that changes
            might be made
            might     made to
                            to better enable private school children                  Tille I funds
                                                              childmt served with Title       funds to
                                                                                                    to make
                                                                                                       make progress
            toward
            10wud meeting state standards.
                                    standards.



                                                 Ihlllnil IIlInOi. Scl'l~'.   s.c_ 10 ~




Final Audit Report                                         14                                 ED-OIG/A05-B0005
                                                                               Appendix A—Auditee Comments




            In response to the OIG's Draft Audit Report, CPS has concurred with the OlG's
                                                                                      OIG's finding and has
            provided its proposed strategy for satisfying the requirement to ensure meaningful and timely
            assessments of student progress. (Attachment A)

            CPS has reponed
                      reported that, on July 12, 2001, a task
                                                          task force, which included CPS personnel and
            representatives of the private school affiliates, arrived at a definition of adequate yearly progress
            based upon lSBE content and perfonnance standards. CPS has forwarded that definition along
                                   fo r assessing student progress. That plan is to be revised by CPS in
            with a proposed plan for
            response to issues raised by ISBE and will subsequently be re-structured to be consistent with the
            requirements of the No Child Left Behind Act (NCLB) of
            !'e(juirements                                             of2oo1.
                                                                           2001 .

            The ISBE agrees with the DIG's position and fully recognizes the importance of demonstrating,
            based on assessments, what constitutes adequate yearly progress. ISBE is working with CPS
            toward that end; and efforts are underway to satisfactorily and expeditiously conclude the
            process of revising CPS' proposal in response to tbe
                                                               the issues raised by ISBE. Effons
                                                                                           Efforts are also
            underway to ensure that CPS is aware of the new provisions contained in the NCLBNCLB Act and for
            CPS to begin now structuring its effons
                                              efforts in a manner which is consistent with the requirements of
            the new legislation. ISBE will monitor to ensure that CPS' efforts to conclude current processes
            and to move forward with the development of a plan addressing adequate yearly progress, which
            will be consistent with the provisions of the NCLB Act of2ool,
                                                                       of2001, will be in consultation with
            representatives of the private school
                                           school affiliates. ISBE will monitor plan development and the
            implementation of the corrective actions which are incorporated into the comprehensive plan.



            Finding No. 2          CPS Could Not A((ouDt
                                                 Account for All Title I Property and Equipment

            OIG Recommendations:
                Recommendations :

            The Assistant Secretary for Elementary and Secondary Education directs ISBE to require CPS
            to:
            to:

            2.1 Review its property and equipment policies and procedures and ensure the policies
                and procedures include directives that will ensure CPS maintains one uniform system
                 of inventory procedures. These procedures should
                                                               snould be appued
                                                                          applied wtifonnly,
                                                                                  uniformly, whether the
                equipment or propeny
                               property is at a public school, a private school, or CPS' administrative offices.
                The inventory should include a description of the property,
                                                                     propeny, a serial number or other
                identification munber,
                               number, the source of the property, who holds the title, the location, use and
                condition of the propeny,
                                 property, and ultimate disposition and sale price of the property. The
                procedures should also ensure consistent labeling of the property, regardless of the location.
                                                                                                       location·.

            2.2 Reconcile its master inventory with the property and equipment located in its Title I
                classrooms; and

            2.3 Provide training to Title I staff and private school officials on how to dispose of



                                                              2




Final Audit Report                                     15                                    ED-OIG/A05-B0005
                                                                                Appendix A—Auditee Comments




               any Title I property and equipment that is obsolete or no longer needed in the Title I
               classroom.

            ISBE Response:

            The OlG found that.
                             that, though CPS has written property management policies that specifically
            address inventory maintenance.
                                maintenance, reconciliation, and disposal procedures, CPS did not ensure
            adherence to those policies when dealing with property and equipment purchased with Title I
            funds and placed in private school Title I classrooms. The OIG concluded that Title I property
                                                                                                       propeny
            and equipment could be lost, stolen, or used for unallowable activities without CPS' knowledge
            because of CPS' failure to (1.) reconcile its property and equipment inventory with the il).ventory
            located in the private school Title I classrooms; (2.) adequately label (or tag) Title I furniture and
            equipment placed in private schools; (3.) ensure that Title I staff and private school officials
            know the procedure for dealing with excess and obsolete property and equipment; and (4.) its
            failure to ensure that Title I staff notify CPS administration upon receipt of new propeny
                                                                                                 property and
            equipment.

            CPS has acknowledged its inability to accowlt
                                                      account for all Title I property and equipment and noted
            that the document provided by CPS to the OlG  OIG was a listing of equipment with a unit purchase
            price ofS5oo.oo or more which CPS purchased within the audit period. CPS indicated its
            intention to review and more carefully attend to the implementation of its policies and
            procedures relating to Title I propeny and equipment as well as to more closely monitor the
            management and utilization of the property and equipment acquired for the provision of services
            to Title I eligible students enrolled in private schools. CPS also indicated that it will include a
            procedure for verification of the equipment inventory in their regular program monitoring
            process and will train CPS personnel working with private schools in the correct methods for
            recording, maintaining.
                         maintaining, transferring, and properly disposing of equipment purchased with Title I
            funds. CPS will also ensure that equipment purchased for Title I classrooms in private schools
            will be properly tagged with pennanent
                                            permanent labeling,
                                                        labeling. and CPS will reconcile the equipment in the
            nonpublic schools to their master inventory by June 30, 2002. (Anacrunents
                                                                                (Anachments A and B)

            !SSE
            ISBE agrees that unifonn
                              uniform application by CPS personnel of the written
                                                                              wrinen policies and procedures
            which CPS has in place for dealing with property and equipment purchased with Title I funds
            would minimize the possibility of Title I property and equipment being lost.
                                                                                       lost, stolen. or used for
                                     lSBE will direct CPS to review its property and equipment policies and
            unallowable activities. !SBE
            procedures to ensure that those policies contain directives which better enable CPS to maintain
            one unifonn
                 uniform system of inventory procedures which.
                                                          which are uniformly
                                                                      unifonn!y applied. CPS has indicated its
            intention to provide training on
                                          on.the
                                             the proper procedures for recording, maintaining, transferring,
                                                                                                  transferring.
            and properly disposing of Title
                                        Tide I property and equipment. ISBE will monitor to ensure that
            training takes place. CPS has also indicated ils
                                                          its intention to include a procedure for verification·
                   eqwpment inventory as pan of its regular program monitoring process, to ensure that Title
            of the equipment
                                     tagged~ith permanent
            I equipment is properly tagged..with  pennanent labeling, and CPS has indicated its intention to
            reconcile the equipment in the nonpublic schools to their master inventory. ISBE!SBE will monitor to
            ensure that those commitments are melmet by June 30,   2oo~.
                                                               3D, 2002.                        .




                                                               3




Final Audit Report                                     16                                     ED-OIG/A05-B0005
                                                                              Appendix A—Auditee Comments




            Fludlng No. 3
            Finding No.3          CPS Could Not Clearly Show How Much It    II Budgeted tor or Spent to
                                  Operate Title
                                          Tille I Pro&ranu
                                                  Proa:ranu a t Each Private Scbool

            OIG Recommendations:

            The Assistant Secretary for Elementary and Secondary Education directs ISBE to ensure that
            CPS:

            3.1 Revises its financial
                            financ ial management system so it will permit CPS to clearly show the amount of
                Title I funds and capital expenditures CPS spent to operate the Title I program at each
                private school. At a minimum, CPS should account for all expenses, personnel and non­
                personnel, based on the private school unit number.

            3.2 Establishes effective budgetary control over Title I expenditures to ensure that money
                budgeted is expended according to the established plans or program designs.

            ISBE Response:
                 Response:

            The OIG concluded that CPS' accounting system was inadequate to account for Title I
            instructional and non-instructional expenditures (capital expenses). The OIG found that CPS had
            three different amounts budgeted for the Title I programs for private school students, did not use
            capital expense funds solely for capital expenses incutTed                        to private school
                                                              incUlTed in providing services 10
            children, could not definitively state how much private school funds it had left over at the end of
                                                                             non-penonnel costs in a similar
            the program year, and did not account for Title I personnel and non-personnel
            manner.

            CPS has described three different actions it has undertaken in order to be able to more clearly
            show how much is budgeted and expended to operate the Title rI program for eligible private
            school students.
                   studenl&. CPS indicated that, for FY 2001, all non-instructional positions were transferred
                              cbarged to the Title I capital expenses account; thaI.,
            out and correctly charged                                          that, fo r FY 2002, CPS assigned
            two (2) project numbers to separate appropriations and expenditures for Catholic and non­
            Catholic schools; and, for FY 2003, CPS will establish a procedure whereby the individual
            school Title I appropriations and expenditures for both personnel and non-personnel items will
            be accounted for based on the private school number. (Attachments
                                                                    (Attachmems A and C)

            ISBE agrees that CPS' financial management system must provide an accurate, current and
            complete disclosure of expenditures and that their accounting procedures must be sufficient to
            permit the tracking of funds in order to establish that such funds have not been used
            impermissibly.

            !SBE
            ISBE will monitor budget management and program implementation to ensure that CPS
            establishes effective budgetary control over Title I expenditures       to ensure that funds are
                                                                 expendirures so as 10
            expended in accordance with established plans andlor program designs.

            ISBE will also closely monitor to ensure that CPS did transfer out and correctly charge all non­
            instructional positions for FY 200t; that CPS did assign two (2) project numbers to separale
                                                                                                separate


                                                             4




Final Audit Report                                    17                                   ED-OIG/A05-B0005
                                                                              Appendix A—Auditee Comments




            appropriations and expenditures for Catholic and non-Catholic schools for FY 2002; and that, for
            FY 2003, CPS will set up the individual school Title
                                                           Tide 1 appropriations and expendirures
                                                                                     expenditures (for both
            personnel and non-personnel items) to be accounted for based on the private school number.

            ISBE expects that such revisions 10
                                              to CPS' financial management system will enable CPS to more
            clearly show the amount of  Title I funds and capital expenditures spent to operate the Title I
                                     ofTitie
            program for eligible private school students.



            FindiDi No. 4          CPS Could Not Provide Support for 35 Title I Transactions

                Recommendation::
            OIG RecommeDdatjOD

            4. t The Assistant Secretary of Elementary and Secondary Education directs !SBE to require
            4.1
                 CPS to provide supporting documentation for the 35 transactions or restore $447,741 to the
                 private schools pool of funding.

            ISBE Response:

            The oro reviewed a sample of CPS' TilleTitle I private school transactions for the period July I,
                                                                                                           I,
            1999, through June 30, 2000. From that sample, the DIG randomly selected and reviewed 560
            from a universe of 13,
                               I 3, 541 transactions. CPS was unable to provide supporting invoices or
                                           560 transactions selected for review.
            purchase orders for 35 of the S60

            In response to this concern, CPS has provided supporting documentation for those 35
            transactions. The documentation for 32 of those transactions can be found in Attachment A.
            The documentation provided for the remaining three transactions can be found in Attachments C
            andD.

            ISBE understands and has reiterated with CPS the C.F.R. requirement that accowuing
                                                                                     accounting records be
            supported by appropriate source documents. !SBE will continue to monitor to ensure that such
            source docwnents
                   documents are maintained and available for review.



             Finding No. 5             Did Not Retum
                                   CPS Old     Return All Title I Funds Spent for an EIpense
                                                                                     Ezpense OESE
                                   Determined Was Unreason
                                                  Unreasonable
                                                            _ble

             OIG Recommendation:
                 Recommendation :

             5.1
             S.l The Assistant Secretary fOLElementary
                                          fOLl!lementary and Secondary Education directs lSBEISBE to require
                 CPS to restore an additional $7,050   ($188, 200 less $181
                                              57,050 (5188,            5181 , 150) to the pool of funds that
                 provide instructional services to private school students.




                                                             5




Final Audit Report                                    18                                   ED-OIG/A05-B0005
                                                                               Appendix A—Auditee Comments




            ISBE Response:

            The orG
                 OIG noted thaI
                             that between November 1999 and October 2000, CPS paid Millenia Consulting
            S188,200 to conduct an evaluation study which the Office of Elementary and Secondary
            Education (OESE) found to be an unreasonable and unnecessary expense. In its January 10,
            2001, monitoring report, OESE instructed !SBElSBE to require CPS 10 restore S5 181, 150 of the S188,
                                                                                                           $188,
            200 paid to Millenia Consulting. Because the OESE found the Millenia Consulting study 10      to be
            unreasonable and wmecessary;
                               unnecessary; all
                                             aJl payments made by CPS to Millenia are unreasonable.
                                                                                          Wlteasonable.
            Therefore, CPS was required 10 to restore the difference of$7,050 to the pool of funds that provide
            instructional services to private school children.

            CPS has provided documents 10  to support its assertion thai
                                                                    that it has restored the amount paid to
                                                (51811,, 150 plus $7,050 - S
            Millenia Consulting in its entirety (SI8                         5188,200).
                                                                              188,200).

            ISBE has
                  bas reviewed the documents submitted by CPS and has enclosed those documents (See
            Attachment E) as part of this response.



                                                   OTHER MATTERS

            Rank Ordering and Per Pupil Allocations

            ISBE Response:

            The OIG noted that CPS has conveyed its intention to address the issue of rank ordering for the
            2002·2003
            2002-2003 school year by working with private school administrators and affiliates to obtain
            accurate poverty data according to an established limeline
                                                                timeline in order to gather and review poverty
            data that fairly represents the number of children that qualify for eligibility under Title I
            legislation and to include those children in the rank ordering process.
                                                                            process. CPS indicated its intention
            to implement a procedure to identify, as a part of its rank ordering process, children who live in
            Chicago but attend private schools oUlside
                                                 outside of Chicago.

            The OIG has
                     nas expressed the opinion that OESE should eDsure
                                                                  ensure that ISBE approves CPS' 2002-
            :z003 appllcadon
            2003  application (or (undlna
                                  funding only after receiving
                                                     receivinR assurancelil
                                                               ass urances that CPS completed It! rank
            orderlag accordlag
            orderlDg  according to the
                                    tbe plan described above.
                                                       above.

            CPS has indicated   thaI it received FY 2003 poverty data
                      indicaled thai                              dala from its private school affiliates in
                         with the agreed upon timeline and that it solicited and received poverty data
            accordance wilh
            regarding children who live in Chicago but attend private schools outside the city. The results of
            their efforts were summarized, .communicated
                                              communicated to the private school affiliates, and submitted to
            CPS' Office of Mana    gemem and Budget on January 7, 2002 for ranking purposes. CPS has
                             Management
            provided a listing of the private schools outside the City of Chicago which
                                                                                   wruch were contacted to
            obtain poverty data, an example of the letter which went out to those private schools, and




                                                              6




Final Audit Report                                     19                                    ED-OIG/A05-B0005
                                                                             Appendix A-Auditee Comments

,

           .ex.
            A     l,e$'Qttthe'~esstibmitted inresp6n~:tO· CPSt·requ~f()rl)i()vertYdata.(S~e
                     ~;}1)."    :               ; . ,.                 ...     ......    '.


           ~~~;~~~r:~&~=~:::=Z!~i.\~=~t~~ 

          ·~.pte~l~it~Qr.d~S:m~;;l1j.~et~@stMtwith·thepllin.@ypy~tP;th¢;OlG.>


                                               eIoju.~$tllt~m,~it't'

            ISB~i$ •.@1i.>f~>~ 91~~s'SilP}X)rtf&;;~~'eft'~;to;m(i{li~;G1>Si79ruplil1liee;~te'
           ;~~ep,t$;!>(1i~I;~att                 ~e·>the..    . .·W~Vl!1 .                    .:

           =~d~~~~~:~                                                                                      

                                                              SiliCmIYi:




           >~.




                                                         '1




Final Audit Report                                  20                                  ED-OIG/A05-B0005
                                                                    Appendix A-Auditee Comments



   ••
        ' '";,   ,
                     "f: ~.]J.


                           ".
                                 "
                                     ... 
  ~


                                     .~
                                        ~.~..
                                      ...




                                     -*,;~
                                                _~,;~~iY';,,~qONritOL"'.M_~




                                                                                            :....




                                                                                                    .. 

                                                                                              r


Final Audit Report·                                      21                 ED-OIGI AOS-BOOOS
                                                                                                        Appendix A—Auditee Comments

        5EVJ' BY :                                                                                                              GRANTS    MGT
                                                                                                                                          ~ :: 3/
                                                                                                                                               3/21
                                                                                                                                                  21

                  '
     ., .,   '.

                      AUDITltEPORT..(,;UNTKUL
                      AUDIT ltEPORT-(;UNTKUL NNlJl'oUlt:K
                                                lJl'IUlt:K El).()1G1AOS-BDO05
                                                           tD-OIGlA05-BOOOS
                      CPS ADMINISTRA
                          ADMlNISTRATlON
                                       nON OF TITLE L PUT           n J}'I.'DS FOR PROVIDING
                                                          PART A, l"\Jrll'DS
                      SERVlC£S TO PRIVATF
                      SERVICES      PRIVATF "CRnm
                                            "CROm . CRn     .nRf.N
                                                      C':RTJ.nRf.N
                      JVLY 1, 1999 TRROVCU
                                   mROVGU JUNt 30,1000

                      RESPONSE:

                      FlDdfat:;
                      FlIIdIa; No. 1 - CPS did n(tt
                                               not "onduct  ~'tIrly proarH'
                                                    "Onduci Jourly          1I.,n~
                                                                    proar", ••      mtll" fnr Title 1 Pri,alt:
                                                                               ,p.u mf:llh.           PrI,ate
                                            SelIooJ
                                            Sel:looJ CbiJdrcn

                      Concur. The adequate ~IY                    IISSCSmlCllt amccrn
                                           ~Jy progress (A Y!') assessment                         agenda in the
                                                                               conlUIl has been an 1getld&
                      CPS meetinws
                          meetinKS this year
                                        yesc with the nonpublic
                                                      nonpublicsc.bool affiJiate ~nwives. On luly
                                                                scboolaffiJi!te                             2001,
                                                                                                   Iuly 12, 200 1, !a
                      tuk flme     ~polCd ofCtuc.nBI)
                           force eompolCd       ofChk.RBn Punik      Scl'lnn\~ ~taff.
                                                             Puniic. Schonl,!; ~taff, Noopuhlic
                                                                                      Nnnpuhlic School Affiliate
                      ~VQ
                      ~vea              and U.S. Oopwunenl or    of Educ:Iltion   Resion VII personnel
                                                                     Education Region         pmonntJ mM  m~ and   Igrud upon
                                                                                                              IIld agreed
                      the !OllO\l'h1g               b' "Adl:qwue
                          follo....tng de.llDl.tlon fQt' "AdequaLe Y\.'IIrly
                                                                    Yl'llrly Provc:n"
                                                                             Proven" rl)l   srudents in the: OODpIIbliIO
                                                                                        CUI srudentJ         DODpIIblic schools
                                                                                                                         schooh
                      IASA          (Rgrams.
                      rASA Title It !"grams.

                      Adequate
                      Adeqll&te ynrly proBJn$     IS met by aI program
                                       ptOBJ.'n$ II            prognm thll huha s dMlnn~red
                                                                                   Oftnnn~red an increa.~e in the
                      pen:CJltaF
                      pefCCJltagc   arudects mcctin~
                                 of srud=ts   ml;;ctlng or exceeding slate  stlilldord.'l from one ,ehool
                                                                      slale S\lIlIdord.'I          ,chool yNr 10
                                                                                                              to the DCXt.
                                                                                                                     next.
                      Adequate yearly
                                yurlyprogress
                                       progl'C$5 mear:~
                                                  mean~ :

                      (I) the pcreentaac
                              peretIl\qe of students not meetin,l!      ~tandards h!S
                                                         meetin,E state standards     c1ccrea.sed yearly,
                                                                                  has clecrea.!ed yearly;

                      (2) !he: pcn.entagc of at\ldcnt'
                          the pctt.entagc    aNdl;;TlU not mocting
                                                           moctinS notl
                                                                   nate ItDlId.atd$ no mort
                                                                        ItDDWd$ is 110           SO'Y.. aft.
                                                                                       roOA than 500/   after S
                                                                                                              5 years;
                                                                                                                yurs;

                      (3) '" moun by an
                      (l)               appRlpnau: SWllianllucl.
                                     II1lppRlpnatc               1S5CS~enllll$lMn ~I,
                                                   sWlliarduccl. asscssmtllltll$U'\lrnCftt.
                      OaIIAUIry     )0,2002, CPS ,taffan(!
                      D1l11l1U1ry 10,2002,                                      ~ffil ill!" r~'lIl
                                                    staff and Nonpublic School .flili.,,.   T~TIII i,,'~
                                                                                                     ;\I~d;~
                                                                                                         di~ the
                      ItIJequItC' y=rly
                      ItIJoquIte        pt'Ogna.! rcquiranent ofIASA
                                  y=tly ptogn:&!               ofIAS" Tid,          1Ig:'~ on the
                                                                               and 1Ig:'1ICd
                                                                       Tille I aM             lh~ following plan:
                                                                                                            plllft:


                                                    Plao for 'Adequatt Yearl~' Progress'
                                                             'Adequate Yurly
                                                          I -l'rintciNollp.blk Sellll)Ols
                                                    Title l-l'rlvatclNol1p.blk            P.rticip.tloa
                                                                               Sclloc.ols Participauo.
                                                                             1001-1002
                                                                             1001-1001

                      i'ruvidcd  bdow are
                      Pruvidcd below            timclinc and p1.s
                                        ue the timcl.inc     pis for
                                                                   fOT ostcablish.inJlldequate  earl y progrw
                                                                       O$tohlishing iWaquate )'rearly  progreu of INda1l1
                                                                                                                  midmtl
                      thal participate in Title I programs in the nonplblic
                                                                  nonpL.t!lic sclioob.

                      The~oftbc
                      The  ~ ofthc ISKU            mC'lt is three-fold: I) to providedataa~(Inc
                                            Lucn mClt                            provide data as one determinant for
                      partici~tion      Tide 1I pruerams:
                      participation in Title    prusnros: 1) 10 II~~IIT'I':
                                                                   R~~II"" Thllt
                                                                            th~1 M~e,o;.
                                                                                 M~e!lrnlenl
                                                                                        m1enl is matched to the curriculum used       u.sed
                      iu!he           el~ so tN.!
                      ul lhc rqular cla.uroom        thaI Title It programs an  are suppltmCftting
                                                                                    suppltmcnting !.he      c;\J.urQOm1 cumcuillm:
                                                                                                       the cl&$1>100!1'    ClJrricu\lIm:
                      and, 3)
                      and.       c1eterml.ne adequate ~Iy IIIVSl
                           J) to determine                     prugll:ss
                                                                      us of srudalts
                                                                               srudallS tbll!  parti ei",,!.: in till;'
                                                                                          thlt participate       the Tillel
                                                                                                                        Titlo 1pro!fUZI.
                                                                                                                               propm!.

                      Vel
                      Ver 1   eYRep' Xear
                          J _ Cuncpt Xli.' ($urrlQg
                                           CStarrlpg Cnintl
                                                     rnintl

                                       The tc."hcr will 1J3C1
                      K.l.Mderplrtca - Th'
                      iO.II.derl'U"tID                       \1311 the fox in the BoA    u&cstm enl heginnins in
                                                                                    Box lI.uc$!:mf'fl!
                      J:.W1erganen, This wi11
                      lC.ilIdergmen.       wi ll pmYic.lt:
                                                 prnvidt: c.lalll  ~pct;inc LV ~ludcUIIH'0,!!IC35
                                                           WILlI. spet;ific    ~u.dcut VIO~C3~ ~I ~t tw
                                                                                                     twon interwh
                                                                                                          intC'wh during the
                      yur in reading only. Uccau~e
                                             lletau~e It 1  5 100 laIc
                                                           IS       tate to do this UU'SStl1cnt
                                                                                    Uil'SStnenl .11
                                                                                                 at the beginning of2002 yeu,
                                                                                                                            year,
                                                            te.lt~ the Terra
                      Title (lcindcrgarttn students will talte                Nuva-L IO ASsessment in the
                                                                       TerR Nova-LIO                       tht spring of200Z.
                                                                                                                      of 200Z.




Final Audit Report                                                        22                                              ED-OIG/A05-B0005
                                                                                                    Appendix A—Auditee Comments

       SENT BY :                                                                                                            GRANTS lIIGT
                                                                                                                            GRAlfrS MGT ::## 4121



              IASA Title     .wduab ill
                     tUIe IIltQduab      aU andet will take theTcrn
                                      ba all                     the Tem NOVl.usessm51t
                                                                           Nov.. usessmCl\t inreadinll    mi math
                                                                                              in. reading and
              thiI year in April 2002
                                 2002. Thro
                                       Thf'M. ~.nTC'l will C1'm_
                                           w. U".rm:.'I    Mn~tu1c          detcnninant for studmt's
                                                               'ltitu1c nne determinant     student's prosras
                                                                                                        prollCSS for
                   yeu. The clusroom
              thi.1)Qt.
              thiJ                      locu;:hw IOg«h1r wilh lb.
                              clusrooD1IOACha"                    the Tid. J 1e.c:Mt     demmine the p1~
                                                                             l-=her will detnmine         pl~
              ofchildmllnthe~
              of~drm lnthe~                     fl,lr Ihc
                                                      UI!: nul.
                                                           f...II.

              IlIgIt Scbaell. Since hiah
              HIP Schools.           hlah schools usc a variety ohsscssme:'lt
                                                                of assessment measures. the rASA Tille
                                                                                                 Title I
              ItUdentl in hip
              ItUdentil    hiah schools      take the TtmI NOVA A1~~VT\enl
                                Ichools will lake                              re&dina and math each year in
                                                                 .m~mlC:nl of readina
              the apri.o~.
                  apri:a~.



                     Fonrmi
              yurl-Fonwd
              YlIll-

              For the yOM yoar 2002-2003, QIldIUld all :Knoul
                                                       :}Choul)'llW"1  thereafiu, allltUd.ots in
                                                               ywn thereafter,                          in. Title I pnl~ will be
              useucr:l     catb year. Composil~
              wesscd catbyeat.           Composit~ oflbtK                         .... ilI be oomplmd
                                                                  lU.:ItumCllb ....
                                                        oflhc:sc: IU.:lCIRDCIIIli                                           ~
                                                                                                 oomplctod by the TItle I bchcn
              IIDd I'lCIJIOrtCd
                      CIfIOrtCd by sebool      determine the adequ&l:e yearly
                                    school to OctcrmlJle                     ~Iy prosre5S            ofpanlclplliPSlNdems.
                                                                                        props ofpanldplUPSlNIiems.
              "'i.~ will provide !'or
              Thill                    fur.a composite &C1'O&S,rade
                                                         &Cl"OM J[lIde levels for reponiDR                             aeoerat:ed in
                                                                                         reportiDR of progress as aeoerated
              rtIpOrtI hy
              I'IpOrtI    by CTB-MeOraw
                              c:TB-MeOraw Hitt         Ea~h Title
                                               Hilt Eaeh     Titlt I teacher.       mll.hnnltion with the clusroom
                                                                     teamer, in mll.hnnllion
              t.caeber!,    "";11 provid~
              t.caeber!,""';11    provide: cod-of-thc·year    c~ 1i9t:l
                                            cnd-of-thc-year elw      li3t:l hy
                                                                            by grade levelI.....el with rec:ommmdatiOrll
                                                                                                         recommendatiON for
              student learning followtJ:g                     uftht:~.
                                     loUowlJ:g the review uftht:      rcpurl¥. These
                                                                                The.$e I'eco=mdarions               should be
                                                                                             recollUllmdations .thculd
              ccmplcted by the m:I ot"the scJlool
              ccmpleted                           scIlool year.

              !!ed".a"am,tIM,dr.
              SCMoINamc:
              ScMolName:                                                     Tide I Tet.tb.c:r:
                                                                             Tldo   Teacher.
              ClIB"Gtad.e
              ClIu'Gnde List;


               t.
               I.
                          Ust;

                              N   •••
                                                                             Classroom Teacher.

                                                                                       RK'""",,,      ........
                                                                                        K . . . . . . .dod




               2.
                                  --
                                  . ..


                                                                                              ...
                                                                                              ..-
              R.epoIU provided through I110e
              RcpoIU                                Nova to include:
                                       U1.C nfTerra Novi


              Group Ibl
              Gmup  LJ"l RcputL- Pill
                                 Pari (I
              PertOrmance Level
              PertOTmlnCe Level Summary,
                                Summary. Pan
                                         Part I &-    (An&I)'Iis ot
                                                de II [An&lysil  otlevel
                                                                    lcvel ofunuersLlIl1iliil¥l
                                                                          OfunUersLlU1d.UIIJ
              RAnk Order Repon
              RAnIc      R~ with Lexilel
                                   uxiles [Grades 1-  1-12]
                                                        12]
              Auetlnienl Summuy,
              .AueIImero1            Pan I
                          SlDTlmary. Pant
               ObjoctivN RCIpOn, Part I
               ObjoctiYN Report,
               R~ MfotCl
               R.~ Mfotc! - Clarity

              These reports $hould provide ample intOrm.!ltion
                                                    intOrmlt.tion tor the TItle II telcher
                                                                                   tClcher to make decisions about
                                                                                                             lbout
              IdeqlIAIt': yurly proaress.
              Ideqlllltf:                 needs. and oducationalloals
                                proarcss. need!,     cducationalloals esl8btished
                                                                         eSIabl.ishcd in col1abot!ltion
                                                                                         collaboration with !he
                                                                                                            the
               c14saroom leach... "!belie
               cl4.w"oom teach     Tbelie reports
                                          rcpofts sho uld be complettJd
                                                  should        eomplertJd in I"'(litllnnrarinn
                                                                              rollllhnraficln ....iith
                                                                                                    lh the child's
               hUIllUOODl teather and shared
               hUlIIuoom              ~ with  wi th the ir..rtrvcuenal
                                                        ir-..rtructional l.adlr      me scbool.
                                                                         l.ader of the    seboo!.


               InC M,tsril"i
               InC M.ltdalli TllTaN,va-CAT, auk Mllltfplc
                             TcrraN.va-CAT, Bulf MllltlpJe A"'_t,  RwliII~.
                                                           AI.I_t, R..dill~ Lan
                                                                            Lu...."r Art    Midlaaadn It
                                                                                         •• Mllllaaaan
                                                                                     Artl,
               Ipp,.,nltlakvt!l,
               Ippnpri!u  lil. ud Ji"u-iD-tII.80l.
                                  F...·lD-tA:.801.




Final Audit Report                                                   23                                               ED-OIG/A05-B0005
                                                                                                 Appendix A—Auditee Comments

       SfNT BY :                                  2- 8- 2 i12:0OPM
                                                          j I2 : 0~                                                     GRANTS
                                                                                                                        ~~s NGT i:
                                                                                                                                ; ~ 5/ 21



     ., .
                    DPOIlT-CONTROL NUMBER ED-OIGIAM-MlJO~
              AUDIT RJi;POJlT·CONTROL           ED-OIGlA~MlJM
                                                    A. FUNDS FOR PROVIDING
                                      TITLE I, PART A,
              CPS ADMINISTRATION OF TrTLE.,
              SERVICU
              SERVIC[.$ TO PRIVATE SCHOOL CHILDREN
              JULy 1.1999 THROUGH JUNE 10, :12000


              FbHUal             collId 001 aceololAt
              F1adUa1 No.2 - CPS could                        Tld~ I propert)'
                                            aCCOlulot for all Tide:  property a.d
                                                                               a.do eqwp_t
                                                                                    equlpme.t

              Concur. With respect to Title iI eqUIpment and propeJt)'
                                                                property located
                                                                         iOClIed at the private schools that wm:
              nnt nn CPS' muter
                            muur list. plusc be advised that what the CPS provided to ll.Iditors
                                                                                             lUditors was alistina;
                                                                                                             a listing
              of .quipment
                 equipment with
                             with.a unit pu.rchase
                                         purchase attlOl.ttlt                thai \\In rmn::hMed within the audit
                                                   lmOU!lt of $500 or more thaI
              period.. ibc   teKha' equipment
                       The teacher   cquipmCtlt invClltory
                                                 inventory records do not hAn      AllY refatelloes
                                                                            hove GlIy                  to pw'clwt
                                                                                        refate!loel as ttl  plll'ChaH
              dac.
              date. dollar amount                                                   Lell~LCI cqw.pmcnt
                                                               cqulpmalt on !he ludlC.l
                           IImOUDt or funding source. The equlpment                          o;qwpmcnt inventory
                                                                                                           invcn1OI)'
              aNld   have been pwdwcd
              aJUld havt:       purclwcd outside        lUdil period. had a unit pw-chaSe
                                            ouuidc the ludit                     pw-cIWe cost less !ha.II
                                                                                                      the $.500 or
              with IInn.Title  f\mds..
                   nnn.Title I funds

                                       equipment and propa1y
                    IClpt't to Title I equipmcnt
              Willi IUpt't                                           wu inel~
                                                        propcny that W(\3 in.:;l~ on CPS' 1N8tlt'
                                                                                               IlWttt list but wu
              not located
                  ioc:ated at the            chool, It Is the unit adminUtrllor'~
                              thel private .Ichool.                admiDi3tnllor'~ rapulIl;iloility
                                                                                   n::Ipullliibility to inform
                                                                                                        info"" the
              aure..u
              Bureau of General
                          Geoen.1 Accounting of asset disposals or tnn.~tm
                                                                       trm.~tm in
                                                                                ID compliance ""ith     cstabHsbed
                                                                                                   with cstablisbed
              mlide-..
              rn1iejel. Depenmc:nt
                         Departmc:nt of Funded Proanms            ~ that this information
                                                  Pro2J1,mS will CIlJUl'C         infonn&tiOD is provided on a
              timely bail.

              Thl CPS will more mote closely monitor private !cbools     RlCeivinl!l Title
                                                                !chools RlCeivinj    TiUe: I furnliu.g
                                                                                             ruudiug Cor    eqwp!lJCGt for
                                                                                                       for equiJllIJClll' foe
              Idher"eIlcc
              adhereacc to established CPS policy.poliey. This will include, but is DOt limited to, train1DI
                                                                                                       train1Dg CPS ItI.tI"
                                                                                                                       state
              it! priVIII!e;
              in  priVllte. dvlnb
                             d1nnb in the come!
                                             cotrtCt methods 10to record, maintain.
                                                                          mai!ltain, trlllllfer      ~y dispose
                                                                                       transfer or properly     dirpos~ of
              oquipm..t. Department of Funded Propms
              cquipm..t.                                                                   inclu(!~ the verificatioD
                                                                      faciJit&ton will includt.
                                                           PrognmJ facilit&ton                             VerifiCltiOIl of
              atuipnwut               ill. their program moniloriq
                             inYl;OWq in
              Q,JuiplUOO.t inVl;Dtory                     monitcrin& orthe   nonpublie ~c:boots.
                                                                      urthe aonpublic     ~c:boots .



                                            DOl d.arly
               Ftadlal Nfl. 3 - CPS could Dot   d ..rty ,ltow
                                                        dloW" ho"   m.llth It badlettd (or or lpeat
                                                              hol'f mu.th                     lpent to optnte
                                th. Titlt
                                6,.         Programt.t
                                    Titi. I Progr.-      each private ICbool.
                                                      at..ch            achool.


               .....
               t.:oncur. AS these t\nding:s
               t:oDCllt.
               taken::
                                  t\nd:ings were brought 10
                                                         to our  IItICfltiOD, the ruuuwu,¥
                                                            OUl' attention,       rulluw iJl~ w rrocUvc actions
                                                                                              wrrccUve  ectiOI1S WCf'C
                                                                                                                 werD



               (1) For FY 2001, III DOaWtruc:tiooal
                   ItMI
                   the Tille             ~ rrojc:.r;t.
                        TiLle I Capital I:.xpclue   rrojc.r;t. Thc
                                                                        w_
                                                               The atatus
                                                                             trmf,C~ Ollt
                                                             potitiOIlJ were tJmf.fern:cl
                                        DOI:IW\l'I.Ictiooal. positiOIll                        ~T1d cnrTeCtly
                                                                                          0111 Rnd            clw",cd to
                                                                                                    l:mTtdIy clw,ecI.
                                                                                  orTitlel allocaliol1 and rpendina WI.$
                                                                    Ntus report ofTitlelllllocatiol'l.                 W&5
                   provtl3ed
                   proVUlCd 10 to the IlOnpubUC $Choo\
                                                   Khool atnlllIt:!.
                                                            afDllvtl.

                       f'Y 2002, CPS wianed 2 projed. D.I.ID1ben
               (2) For FY                                                   I])I)ropriatiOJl. and expenditures
                                                      Q1lDI.ben to separate 8])Oropriation
                                     Noneathelie Schaab.as
                   for Catholio and NonC.tholit                pooled. Also,
                                                   Schaab as pooled.        AI$o, !hl! nonrruhlic    schoo! affiliate!!,
                                                                                       nnnJ"luhlic school   affiliateS, 01'
                                                                                                                         01'11.
                      tmguillS buh,
                   an ongoing         arc: provided with
                               buil, arc            with.a rc:port.
                                                           report O offllAN                a.llou.tioD. and ipC!ldina
                                                                                   Title I 1ll1owioD.
                                                                        starusS of Tide                     ipC!ldint:
                   based on tbe program
                   bued          program. design.

                                                        positions (or
               (3) For FY 2003. we will set up the poJitiolll         ror the nonpublic school                          charged.
                                                                                              school personnel to be eharFl
                   in Iheir
                      tbtir eoc,..,pondine  &5,ign~ lItIit
                             cOlu,pondine lIuigJad      unit nUlTlber
                                                             n1.!mbef with the check          rlr;<;f,Mlinn and reportina:
                                                                                       check" llr;<;tlMlinn                IIIlit
                                                                                                                 rcportina unit
                   ~LiU Ul
                   still UI tbe r~ivt.
                                r~ivt public
                                           publio;; $l;hoob
                                                    Khoob WI thllt takas O/LfO ofth.iT
                                                                                   of tho iT payroll and evaluation.
                                                                                                            ovulation. The
                   individual "hoo!
                                ,cboo! Title ieppropriation
                                             I appropriation awl       CJ;pcnUiL~. fur
                                                                IIJ"Id t:J;ptnJiII.ll'O:S, ro,' both
                                                                                                bolh pc.  <wnnc:l and
                                                                                                       pc.'WMc:l
                                            ACcounted tor based on
                   noapI!II'SOnnel, will be accounted
                   nonpersonnel.                                           tne ponte
                                                                       Oil tnt  pnnte school number.  number.




Final Audit Report                                                 24                                             ED-OIG/A05-B0005
                                                                                          Appendix A—Auditee Comments

       SENT BY :
       SfNf                                    2- 8- 2 il2 :OQPM




              .Autmrr
                 mrr REPORT-CONTROL          E:D-OIGJA~BOOO5
                      REPORT· CONTROL NUMBER ED-OIGJADS-BOOO5
              CPS ADMINlSTRATlON       TITLE I, PART A, FlJN1)S
                  ADMINlSTRATION OF TinE                Ft1NDS FOR PROVIDIN'C
                                                                   PR.OVIDINC
              SERVICES 1'0TO PRIVATE SCDOOL
                                     SCUOOL CTIILDJtEN
                                              cnlLDREN
                            TIIKOUGH JUNE 30,1000
              J'VLY 1, lt99 THROUGH


              n.d1Dt No." - CPS eoWd  nDt proviw.
                                could IIDt         IUppott r.,.
                                           provide IUpport rM' 35 Title
                                                                  Tltlt I a-p.adloet
                                                                          ft' ... ,udool .


              EnclotOd are
              Enclotod  m31    ottbe 35
                           32 oftbe  31 miSSing  invoices. Due to dll:
                                        miSSiIIg lnYOic.a.             IlmJtaI. ~ in lhe
                                                                  the IlmItallpal.:C Ihe wm:nl f..mt"lhe
                                                                                               f-.ilit,..lhe
              invoicea being requested have to be pulled from ouuide            U~
                                                                        storlae ueu
                                                              OlIuide .tonge


              n.J.l.q No.
              n.l1q   No.55 - CPS did. 0"
                                       oot ret\!,..             taads lpeat
                                           retl.\,.. aU Title I (.ads Ipmt fot  ... upcatc OEBE
                                                                            for ..
                              dtttrmiDtcS was Uf'UIOGabtt.
                              ddtrm1.atd wu    Uf'UlCmabk.

              TlIc
              T1!e additional
                   Idditional amount was restored                    fi.IIl.ds that vrovide
                                            reslOred in the pool of funds           provide instructional
                                                                                            insttuctional KrViccs
                                                                                                          KrVice:s 10
                                                                                                                   eo
              Catholic tchooil
              Catbolio                 IItud~tI .nd
                        tclaooll Title Iltadenb  u!d wu:   UIIed to fund the IUIDIIU!'f
                                                      wu U*6d                             pmgnIm imrlernented. in
                                                                                 rumml!'T PfO!!'Im
              June  2001 to Ausust
              Junc2001       AIJ&US1: 2001.

               OtMrMatUt
              CPS ~ved th,
              CPS..-iwd          fY 2003
                             the FY 200) poverty dalJ.lTnm
                                                   dab. frnm the II.OCIpubl.ic school. in It.l:tlf(lMCC
                                                                 noapubl.ic school'                        with iN
                                                                                           It.l'l'lfdMCC wilh   ihe
              ~w(f:d timeli.De.
              "'{wed   timcline. CPS also       poverty dat, rcqUC3t 11'(11 nonpublic school.
                                      &Iso sent povertydal.,                                        outside tM
                                                                                       Khool. olltside      the district
                                                                                                                di8trict
              wittrin Cook
              within  Cook: Colmry
                            CoUDry to provide a lima
                                                listing ofsrudc:nts
                                                        ofstUdcnts wbo
                                                                     who IreIn: eligibh: fOI ~ ud
                                                                                d igibh: for         &aW lc:doocd
                                                                                                         lc:duced luoch
                                                                                                                  luDI:h
               and TANF, woo are residents
                                   rcsidcn~ of Chicago.
                                                OJicago. Responses
                                                          Respomes were summanzed to enable
               compu:uri:r.ed maithina
               a:ropuuri:r.ed matehina of student addresses to the public
                                          studc:m adCrmes          pubUt school aneodance  ana. The results
                                                                                attendance aru.      mulls
               w.  . OOIUWIIieawd
                 ...                  th' noopublic school amUue
                     00IUWIIiCl1ed to Ihe                            repmentalivet
                                                            affiliue repmcntati     end .ubmitted
                                                                                VCl u:d lubmitted 10 the:
                                                                                                     the
               OffiueotMenearmcnl
               Offiuc otMeoaacmcnland DI1d~ on-January
                                  and Dudgct OD Januuy 7, 2002 furranlrinS
                                                               fur ranking purp03M.
                                                                           purpo_ .




Final Audit Report                                            25                                          ED-OIG/A05-B0005
